OIG Audit Report GR-50-09-001

Office of Justice Programs Office of Juvenile Justice and Delinquency Prevention Cooperative Agreement Awarded to the Dupage County Childrens Center Project, Wheaton, Illinois
Audit Report GR-50-09-001
November 2008
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of the DuPage County Childrens Center (Childrens Center) Project, Cooperative Agreement Number 2006-JL-FX-K020, in the amount of $493,614 awarded by the Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Prevention (OJJDP), to the DuPage County States Attorneys Office.  The goals of this cooperative agreement (hereinafter referred to as the grant) include minimizing the trauma child-victims of abuse experience during an investigation by utilizing “best  practice” techniques and improving the coordination of joint investigations.  The purpose of the grant was to fund salary and fringe benefit costs of certain Childrens Center employees and to upgrade the audio-video recording system used to record interviews with child victims and witnesses.  This grant also funded a replacement vehicle for one Childrens Center investigator.
The purpose of this audit was to determine whether reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant; and to determine program performance and accomplishments.  The objective of our audit was to review performance in the following areas:  (1) internal control environment; (2) drawdowns; (3) grant expenditures, including personnel costs; (4) budget management and control; (5) property management; (6) financial status (FSR) and Categorical Assistance Progress (CAPR) reports; and (7) program performance and accomplishments.  We determined that matching cost requirements, indirect costs, program income, and monitoring of subcontractors and subgrantees were not applicable to this grant.  The DuPage County States Attorneys Office was awarded a total of $493,614.
We found that the grantees internal controls, drawdown support, expenditure records, grant reporting, and its performance against grant objectives were all satisfactory.  Our results are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology are discussed in Appendix I.



 




Return to OIG Home Page